   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




July 21, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of the Limited Scope Review at Maryland Rural Development
                Corporation (A-03-09-00371)


The attached final report provides the results of our limited scope review at Maryland Rural
Development Corporation. This review was requested by the Administration for Children and
Families, Office of Head Start, as part of its overall assessment of Head Start grantees that have
applied for additional funding under the American Recovery and Reinvestment Act of 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-03-09-00371 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
REVIEW AT MARYLAND RURAL
DEVELOPMENT CORPORATION




                      Daniel R. Levinson
                       Inspector General

                          July 2010
                        A-03-09-00371
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF) administers the Head Start
program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5 percent cost-of-living increase and bolster
training and technical assistance activities.

Maryland Rural Development Corporation (Maryland Rural), a nonprofit agency established in
1984, operates a Head Start program that provides education, health, and social services to low-
income pre-school children and their families at locations throughout Northeast and Central East
Maryland. Maryland Rural also operates a transportation program and a town management
program, and counsels and assists people in landlord/tenant relations.

Maryland Rural is funded primarily through Federal, State, and local government grants. For the
period December 1, 2008, through November 30, 2009, ACF awarded grant funds to Maryland
Rural totaling $3,130,367. In addition, Maryland Rural was awarded Recovery Act grant funds
for the budget period June 1, 2009, through September 30, 2010, totaling $224,188 for cost-of-
living increases and quality improvements.

OBJECTIVE

The objective of our limited scope review was to assess Maryland Rural’s financial viability,
capacity to manage and account for Federal funds and to operate its Head Start program in
accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe that, generally, Maryland Rural is financially viable and
has the capacity to manage and account for Federal funds and is capable of operating a Head
Start program in accordance with Federal regulations. However, we identified weaknesses
related to fixed asset records, encumbering of Head Start assets, procurement policies and
procedures, and sharing of information with the Board of Directors.




                                                 i
RECOMMENDATION

In determining whether Maryland Rural should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Maryland Rural’s ability to account for and manage Federal funds and to operate a
Head Start program.

GRANTEE’S COMMENTS

In its comments on our draft report, Maryland Rural concurred that its reconciliation between the
physical inventory and fixed assets database was not documented in its entirety and stated that it
has taken measures to correct this. Maryland Rural also stated that it has corrected all other
noted deficiencies, but it did not provide details on the actions taken to correct the deficiencies.
Maryland Rural’s comments are included in their entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              Maryland Rural Development Corporation .......................................................1
              Federal Requirements ........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATION.............................................................................3

          FIXED ASSET RECORDS ...........................................................................................3

          ENCUMBERING OF HEAD START ASSETS ...........................................................4

          PROCUREMENT POLICIES AND PROCEDURES ..................................................4

          SHARING OF INFORMATION WITH THE
          BOARD OF DIRECTORS ............................................................................................5

          RECOMMENDATION .................................................................................................5

          GRANTEE’S COMMENTS ..........................................................................................5

APPENDIX

          GRANTEE’S COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services (HHS), the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private nonprofit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5 percent cost-of-living increase and bolster
training and technical assistance activities.

Maryland Rural Development Corporation

Maryland Rural Development Corporation (Maryland Rural), a nonprofit agency established in
1984, operates a Head Start program that provides education, health, and social services to low-
income pre-school children and their families at locations throughout Northeast and Central East
Maryland. Maryland Rural also operates a transportation program and a town management
program, and counsels and assists people in landlord/tenant relations.

Maryland Rural is funded primarily through Federal, State, and local government grants. For the
period December 1, 2008, through November 30, 2009, ACF awarded grant funds to Maryland
Rural totaling $3,130,367. In addition, Maryland Rural was awarded Recovery Act grant funds
for the budget period June 1, 2009, through September 30, 2010, totaling $224,188 for cost-of-
living increases and quality improvements.

Federal Requirements

Pursuant to 45 CFR § 74.34(f), grantees are required to maintain equipment records that are
accurate and include whether the title vests in the recipient or the Federal Government. Grantees




                                                 1
must conduct a physical inventory and reconcile the physical inventory to the fixed asset records
at least once every 2 years.

Pursuant to 45 CFR § 74.37, Head Start grantees are prohibited from encumbering assets,
including real property, bought with Head Start funds without prior authorization from Head
Start officials.

Pursuant to 45 CFR § 74.44(a), grantees are required to establish written procurement procedures
to ensure that, where appropriate, an analysis is made of lease and purchase alternatives to
determine which would be most economical and practical to the recipient and the Federal
Government.

Section 642 (d)(2) of the Head Start Act requires Head Start agencies to ensure the sharing of
accurate and regular information for use by the governing body and policy council about
program planning, policies, and Head Start agency operations. This information must include
any communications and guidance from the Secretary of HHS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess Maryland Rural’s financial viability,
capacity to manage and account for Federal funds and to operate its Head Start program in
accordance with Federal regulations.

Scope

We performed this review in response to an August 12, 2009, limited scope request from ACF.
Therefore, we did not perform an overall assessment of Maryland Rural’s internal control
structure. Rather, we reviewed only the internal controls that pertained directly to our objectives.
Our review period was August 1, 2008, through July 31, 2009.

We performed our fieldwork at Maryland Rural’s administrative office in Annapolis, Maryland,
during the period August through October 2009.

Methodology

To accomplish our objectives, we:

     • reviewed relevant Federal laws, regulations, and guidance;

     • reviewed Maryland Rural’s Head Start application and supporting documentation;

     • reviewed Federal Head Start grant award documentation to determine Maryland Rural’s
       total Head Start and Recovery Act Federal funding;




                                                 2
     •   interviewed Maryland Rural’s personnel to gain an understanding of its internal controls
         and its accounting system controls;

     •   reviewed Maryland Rural’s fiscal procedures related to procurement, accounting
         documentation and preparation of financial reports;

     •   reviewed Maryland Rural’s audited financial statements for fiscal years 2006 through
         2008;

     • reviewed Maryland Rural’s timesheets, travel vouchers, invoices, cash receipts, and other
       supporting financial documents;

     • reviewed Maryland Rural’s fixed asset records; and

     • reviewed Maryland Rural’s Board of Directors composition, Board meeting minutes,
       and documentation provided to Board members during the meetings.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, we believe that, generally, Maryland Rural is financially viable and
has the capacity to manage and account for Federal funds and is capable of operating a Head
Start program in accordance with Federal regulations. However we identified weaknesses
related to fixed asset records, encumbering of Head Start assets, procurement policies and
procedures, and sharing of information with the Board of Directors.

FIXED ASSET RECORDS

Pursuant to 45 CFR § 74.34(f), grantees are required to maintain equipment records that are
accurate and include information stating whether the title vests in the recipient or the Federal
Government. Grantees must also conduct a physical inventory and reconcile the physical
inventory to the fixed asset records at least once every 2 years.

Maryland Rural’s fixed asset records, totaling $1,445,629, did not include information on
whether the title to the listed fixed assets vested fully or partially in the Federal Government or
Maryland Rural. In addition, Maryland Rural had not performed a reconciliation of its physical
inventory to its fixed asset records in the 2 years prior to our audit. Maryland Rural conducted a
physical inventory of its fixed assets in May 2009 but could not document any reconciliation to
its fixed asset records. Our review found Head Start assets identified during the physical
inventory that had never been included on the fixed asset records and assets that had been deleted
from the fixed asset records although they still existed.


                                                 3
A reconciliation of the physical inventory to the fixed asset records would have corrected or
explained these differences.

ENCUMBERING OF HEAD START ASSETS

Pursuant to 45 CFR § 74.37, grantees are required to receive prior authorization from ACF
before encumbering assets, including real property, bought with Head Start funds.

Maryland Rural did not receive prior authorization from ACF before including a building
purchased with Head Start funds as part of the collateral on a loan of $400,000. On March 28,
2008, Maryland Rural secured a $400,000 loan by encumbering two buildings that it owned: one
building, purchased with Head Start funds, represented $50,000 of collateral on the loan and the
other building, purchased with non-Head Start funds, represented $350,000 of collateral on the
loan.

Maryland Rural officials indicated that they needed the loan to meet current obligations at that
time. Maryland Rural had previously used successive year grant funds to pay prior year grant
expenses. Its correction of the improper use of funds resulted in a temporary cash flow shortage,
which it covered with the loan. The Maryland Rural Single Audit, dated December 31, 2007,
determined that this lack of controls had been corrected and our review determined that
Maryland Rural did not use successive year grant funds to pay prior year grant expenses during
our review period.

We brought this weakness to the attention of Maryland Rural officials. Subsequent to our
fieldwork, Maryland Rural successfully negotiated with the bank to release the encumbered
building purchased with Head Start funds.

PROCUREMENT POLICIES AND PROCEDURES

Pursuant to 45 CFR § 74.44(a), grantees are required to establish written procurement procedures
to ensure that, where appropriate, an analysis is made of lease and purchase alternatives to
determine which would be most economical and practical to the recipient and the Federal
Government. Maryland Rural established a procurement policy that required three verbal or
written bids on all items over $500. Maryland Rural policy also had an exception for emergency
purchases and situations where a vendor in the immediate vicinity sold a specific service at a
price that no other vendor could feasibly match.

Maryland Rural did not always follow its own procurement policies and procedures. We
reviewed nine purchases over $500 and found that Maryland Rural used its exception policy and
did not require three bids for any of the nine. Maryland Rural was not required to obtain three
bids for eight of the purchases because they fell under the exceptions in their policies and
procedures. However, the remaining purchase did not meet the requirements for an exception
because it was not related to an emergency and there was another vendor in the immediate
vicinity that could match the price obtained by Maryland Rural.




                                                4
SHARING OF INFORMATION WITH THE BOARD OF DIRECTORS

Section 642 (d)(2) of the Head Start Act requires grantees to ensure the sharing of accurate and
regular information for use by the governing body and policy council, about program planning,
policies, and Head Start agency operations. This information must include any communications
and guidance from the Secretary of HHS.

Maryland Rural generally did not share communications and guidance from HHS with its Board
of Directors. We reviewed Board meeting minutes and information handed out to the Board at
the meetings held from December 2008 through July 2009. During this period, ACF issued five
Information Memorandums that provided policy information and eight Program Instructions
through the Office of Head Start that addressed specific requirements for Head Start programs.
However, Maryland Rural did not include the HHS guidance in the information handed out at the
meetings and the Board generally did not discuss or comment on the HHS guidance.

RECOMMENDATION

In determining whether Maryland Rural should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Maryland Rural’s ability to account for and manage Federal funds and to operate a
Head Start program.

GRANTEE’S COMMENTS

In its comments on our draft report, Maryland Rural concurred that its reconciliation between the
physical inventory and fixed assets database was not documented in its entirety and stated that it
has taken measures to correct this. Maryland Rural also stated that it has corrected all other
noted deficiencies, but it did not provide details on the actions taken to correct the deficiencies.
Maryland Rural’s comments are included in their entirety as the Appendix.




                                                 5
APPENDIX
APPENDIX: GRANTEE’S COMMENTS
